                                 Closeout for M98120044
      ()
 On ~ecember1998, we were informed of an intellectual property and scientific dispute                       . .


 between two scientists' regarding work on which they collaborated on. One of the scientists
 sent a lengthy electronic mail message to three NSF program officers2detailing the
 problems. We contacted the current program officer who said that he had received a
 message fiom one of the scientists. He had subsequently received a second message, stating
 that the problem raised in the first message could be satisfactorily resolved.

 Without a clear statement of the allegations, we can proceed no further with this matter. This
 inquiry is closed.



 Cc: Integrity, IG




                                               ity) and ~                              r University)..            d
                                                t is a current program officer, the latter two are former
                                               Program within the Division of-in                  the
Directorate for


                                     Page 1 of 1                                    M98-44
